Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

211 So.3d 1
Supreme Court of Florida.
Ronald KNIGHT, Appellant,
v.
STATE of Florida, Appellee.
Ronald Knight, Petitioner,
v.
Julie L. Jones, Etc., Respondent.
No. SC13–820
|
No. SC14–567
|
[December 15, 2016]
Synopsis
Background: Defendant, whose conviction for first-degree
murder and sentence of death was affirmed by the
Supreme Court on direct appeal, 770 So.2d 663, moved
to vacate his conviction and sentence. The Circuit Court,
Palm Beach County, Jeffrey J. Colbath, C.J., denied
defendant's motion, and petitioned for a writ of habeas
corpus.

objection, or deprive him of the right to self-representation
in postconviction proceedings;
[6] defendant's claim that his waivers of guilt phase counsel
and penalty phase juries were not knowing, intelligent,
and voluntary was procedurally barred; and
[7] appellate counsel could not be found ineffective for
failing to raise a meritless claim that defendant's waivers
of guilt and penalty phase juries were not knowing,
intelligent, and voluntary.

Circuit Court's denial of relief affirmed.
Habeas relief denied.
Canady and Polston, JJ., concurred in the result.

West Headnotes (29)
[1]

To prevail on ineffective assistance of counsel
claims, a defendant must demonstrate both
prongs of the Strickland test, deficient
performance and prejudice, as to each claim.
U.S. Const. Amend. 6.

Holdings: The Supreme Court held that:
[1] penalty phase counsel was not deficient for failing to
investigate and present additional mitigation evidence;
[2] penalty phase counsel was not deficient for failing
to move for a discharge of murder conviction based on
defendant's assertion that because a jury had been sworn
in a prior case in which nolle prosequi was entered, double
jeopardy attached;

Cases that cite this headnote
[2]

[5] Circuit Court did not abuse its discretion in
reappointing postconviction counsel over defendant's

Criminal Law
Deficient representation in general
Counsel has performed deficiently when his or
her acts or omissions fall outside the range of
reasonably competent attorney performance
when viewed under prevailing professional
standards. U.S. Const. Amend. 6.

[3] penalty phase counsel was not deficient for failing to
move for discharge of murder conviction on speedy trial
grounds;
[4] any failure by penalty phase counsel to raise the issue of
whether or not the State violated discovery requirements
did not prejudice defendant, and thus, could not amount
to ineffective assistance;

Criminal Law
Deficient representation and prejudice in
general

Cases that cite this headnote
[3]

Criminal Law
Prejudice in general
As to the prejudice prong of an ineffective
assistance of counsel claim, counsel's

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

deficiency must have so affected the fairness
and reliability of the proceedings that the
Supreme Court's confidence in the outcome of
a defendant's case is undermined. U.S. Const.
Amend. 6.
Cases that cite this headnote
[4]

by defendant either refused to testify at
the penalty phase, or were found to lack
credibility. U.S. Const. Amend. 6.
Cases that cite this headnote
[7]

Criminal Law
Review De Novo

In determining whether penalty phase counsel
was ineffective for failing to present mitigation
evidence, the Supreme Court does not inquire
whether mitigation could have been better
presented, but whether the defendant has
demonstrated both deficient performance and
prejudice. U.S. Const. Amend. 6.

Criminal Law
Post-conviction relief
In reviewing the denial of a postconviction
relief motion, the Supreme Court defers to the
postconviction court's factual findings where
supported by competent, substantial evidence,
but reviews the court's legal conclusions de
novo.
Cases that cite this headnote
[5]

Cases that cite this headnote
[8]

Criminal Law
Credibility of Witnesses

Cases that cite this headnote
Criminal Law
Adequacy of investigation of mitigating
circumstances
Criminal Law
Presentation of evidence in sentencing
phase
Penalty phase counsel was not deficient for
failing to investigate and present additional
mitigation evidence for capital murder
defendant; while the only doctor to provide a
clinical diagnosis of defendant acknowledged
that new mitigation information he received
confirmed and increased the strength or
credibility of his penalty phase testimony,
such confirmation was not necessary,
and defendant failed to show how such
information would have made a difference,
given the trial court's findings as to the
statutory mental health mitigators, and the
fact that other potential witnesses identified

Criminal Law
Other particular issues in death penalty
cases
Penalty phase counsel was not deficient for
failing to move for a discharge of murder
conviction based on defendant's assertion that
because a jury had been sworn in a prior case
in which nolle prosequi was entered, double
jeopardy attached; the postconviction court
found credible testimony from the former
prosecutor and the court reporter that there
was no unrecorded or untranscribed portion
of the transcript in the prior case to indicate
that a jury had been sworn, a witness had been
called, or that a motion for discharge had been
made. U.S. Const. Amend. 5, 6.

The Supreme Court is highly deferential to the
postconviction court on issues of credibility.

[6]

Criminal Law
Presentation of evidence in sentencing
phase

Cases that cite this headnote
[9]

Double Jeopardy
Elements of Former Jeopardy
Rule of criminal procedure that describes
when trial commences for speedy trial
purposes cannot serve as the basis for a double
jeopardy violation. U.S. Const. Amend. 5;
Fla. R. Crim. P. 3.191(c).
Cases that cite this headnote

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

[10]

the same criminal episode; such is the case
even where the defendant's attorney seeks the
continuance over the defendant's objection or
without his consent. Fla. R. Crim. P. 3.191(j)
(2).

Double Jeopardy
Empanelling and swearing jury, or
swearing witness and receiving evidence
Double jeopardy attaches when the jury is
impaneled and sworn; this principle does not
refer to a venire panel being sworn in to
prepare for voir dire, but to the jury of record,
which has been selected to hear the case, being
sworn in to prepare to hear testimony. U.S
Const. Amend. 5.

Cases that cite this headnote
[14]

Counsel cannot be deemed ineffective for
failing to file a baseless motion for discharge.
U.S. Const. Amend. 6.

Cases that cite this headnote
[11]

Criminal Law
Other particular issues in death penalty
cases
Penalty phase counsel was not deficient
for failing to move for discharge of
murder conviction on speedy trial grounds;
postconviction court's finding that speedy
trial rule was not violated because
continuances could be attributed to defendant
was supported by competent evidence that
defendant filed for or stipulated to at least
one continuance before the speedy trial
time expired, and witness intimidation by
defendant was the cause of the entry of a nolle
prosequi. U.S. Const. Amend. 6; Fla. R. Crim.
P. 3.191(j)(2).

Cases that cite this headnote
[15]

Criminal Law
Other particular issues in death penalty
cases
Any failure by penalty phase counsel to raise
the issue of whether or not the State violated
the discovery requirements of Richardson v.
State by failing to provide capital murder
defendant with records and transcripts from a
prior case that arose from the same criminal
act that was nolle prosequied did not prejudice
defendant, and thus, could not amount to
ineffective assistance; defendant failed to
demonstrate that any of the documents in
question would have had any impeachment
value in addition to that he was able to
raise at the subsequent trial, and using the
information in an attempt to substantiate a
theory in which the murder occurred at a
different location would not have eliminated
defendant as the shooter. U.S. Const. Amend.
6.

Cases that cite this headnote
[12]

Criminal Law
Speedy trial

Criminal Law
Consent to or waiver of delay
A finding that speedy trial has not expired is
not a finding that it has been waived. Fla. R.
Crim. P. 3.191(j)(2).

Cases that cite this headnote

Cases that cite this headnote
[16]
[13]

Criminal Law
Consent to or waiver of delay
When a defendant requests a continuance
prior to the expiration of the applicable speedy
trial time period for the crime with which he is
charged, the defendant waives his speedy trial
right as to all charges which emanate from

Criminal Law
Right to counsel
Criminal Law
Self-representation
Circuit court did not abuse its discretion
in reappointing postconviction counsel over
defendant's objection, or deprive him of the
right to self-representation in postconviction

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

proceedings following his conviction for
murder in the first degree and sentence
of death; at the time of postconviction
counsel's reappointment, defendant was not
unequivocally seeking to represent himself,
but rather was asserting a desire to discharge
appointed counsel and to have new counsel
appointed, specifically stating that he did
not want to represent himself. U.S. Const.
Amend. 6.

that decision and the waiver is knowing and
voluntary. U.S. Const. Amend. 6.
Cases that cite this headnote
[20]

Any right of self-determination and
self-representation during postconviction
proceedings does not outweigh the Supreme
Court's solemn duty to ensure that the death
penalty is imposed in a fair, consistent,
and reliable manner, and to guarantee
the Court's administrative responsibility to
minimize delays in the postconviction process.
U.S. Const. Amend. 6.

Cases that cite this headnote
[17]

Criminal Law
Self-representation
Criminal Law
In general; right to appear pro se
While a defendant has a constitutional right
to self-representation and self-determination
at trial, these rights do not continue to the
same degree after the conviction. U.S. Const.
Amend. 6.

Cases that cite this headnote
[21]

Criminal Law
Waiver in proceedings after trial
A defendant's federal constitutional right to
self-representation ends when he or she has
been convicted; likewise, after the conviction
is affirmed on direct appeal, a defendant's
right to self-determination must be balanced
with the Supreme Court's obligations to
ensure reliability, fairness, and uniformity in
the imposition of the death penalty. U.S.
Const. Amend. 6.

Criminal Law
Delay or misuse of waiver or right of selfrepresentation
While a defendant has the right of selfrepresentation, he or she does not have the
right to disrupt the judicial system, frustrate
the administration of justice, or prevent his
or her case from being litigated. U.S. Const.
Amend. 6.

Cases that cite this headnote
[18]

Criminal Law
Self-representation

Cases that cite this headnote
[22]

Criminal Law
Right of defendant to counsel
The Supreme Court reviews a lower court's
handling of a request for self-representation
for an abuse of discretion. U.S. Const.
Amend. 6.

Cases that cite this headnote

Cases that cite this headnote
[19]

Criminal Law
Self-representation
A defendant continues to have a right
to self-determination during postconviction
proceedings, and the Supreme Court will
not force counsel on a defendant who does
not seek to challenge his or her convictions
after the convictions have been affirmed, so
long as the defendant is competent to make

[23]

Criminal Law
Affirmance of conviction
Capital murder defendant's claim that
his waiver of guilt phase counsel was
not knowing, intelligent, and voluntary
was procedurally barred on post-conviction
review, where the Supreme Court addressed
the same claim on direct appeal of his murder

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

conviction and sentence of death, finding
that the trial court did not err in allowing
defendant to waive counsel and represent
himself. U.S. Const. Amend. 6.

issue been brought on direct appeal, the
Supreme Court would have found the waivers
to be knowing, intelligent, and voluntary
given defendant's prior experience with a
criminal trial, and his adamancy for waiving
his right to a trial by jury. U.S. Const. Amend.
6.

Cases that cite this headnote
[24]

Criminal Law
Post-conviction proceeding not a
substitute for appeal
Capital murder defendant's claim that his
waiver of penalty phase counsel was
not knowing, intelligent, and voluntary
was procedurally barred on post-conviction
review, as it should have been raised on direct
appeal. U.S. Const. Amend. 6.
1 Cases that cite this headnote

[25]

Habeas Corpus
Adequacy and Effectiveness of Counsel
As with postconviction claims, the Strickland
standard is used with regard to a habeas claim
to determine ineffective assistance of appellate
counsel. U.S. Const. Amend. 6.
Cases that cite this headnote

[26]

Criminal Law
Appeal
Any deficiency by appellate counsel must be
related to an error affecting the outcome
of the case, not harmless error, and must
have so affected the appellate process that
confidence in the correctness of the result is
undermined; furthermore, appellate counsel
cannot be deemed ineffective for failing to
raise a meritless issue. U.S. Const. Amend. 6.
Cases that cite this headnote

[27]

Criminal Law
Raising issues on appeal; briefs
Appellate counsel could not be found
ineffective for failing to raise a meritless
claim that capital murder defendant's waivers
of guilt and penalty phase juries were not
knowing, intelligent, and voluntary; had the

Cases that cite this headnote
[28]

Jury
Form and sufficiency
A waiver of the right to a jury trial must be
knowing, intelligent, and voluntary.
1 Cases that cite this headnote

[29]

Criminal Law
Appeal
Any failure by appellate counsel to obtain
a complete record on appeal of first-degree
murder conviction and sentence of death did
not prejudice defendant, and thus, was not
ineffective assistance; if defendant's purpose
for the purportedly missing documents was
impeachment as to truthfulness, such purpose
was not thwarted given that defendant was
able to impeach State witness using the
statements and depositions he had. U.S.
Const. Amend. 6.
Cases that cite this headnote

*4 Two Cases: An Appeal from the Circuit Court in and
for Palm Beach County, Jeffrey J. Colbath, Chief Judge—
Case No. 501997CF005175AXXXMB, And an Original
Proceeding—Habeas Corpus
Attorneys and Law Firms
Neal Andre Dupree, Capital Collateral Regional Counsel
—Southern Region, William McKinley Hennis, III,
Litigation Director, Capital Collateral Regional Counsel
*5 —Southern Region, and Nicole M. Noel, Assistant
Capital Collateral Regional Counsel—Southern Region,
Fort Lauderdale, Florida, for Appellant/Petitioner

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

Pamela Jo Bondi, Attorney General, Tallahassee, Florida;
and Leslie T. Campbell, Assistant Attorney General, West
Palm Beach, Florida, for Appellee/Respondent
Opinion
PER CURIAM.
Ronald Knight appeals an order of the circuit court
denying his motion to vacate his conviction of first-degree
murder and sentence of death filed under Florida Rule of
Criminal Procedure 3.850 1 and petitions this Court for
a writ of habeas corpus. We have jurisdiction. See art. V,
§ 3(b)(1), (9), Fla. Const. For the reasons that follow, we
affirm the postconviction court's denial of relief and deny
habeas relief. 2
1
2

The parties have stipulated that rule 3.850 governs
this case.
Knight has also filed a supplemental brief seeking
relief under the United States Supreme Court's
decision in Hurst v. Florida, –––U.S. ––––, 136
S.Ct. 616, 193 L.Ed.2d 504 (2016). However, Knight
waived his penalty phase jury and, thus, is not entitled
to relief. Brant v. State, 197 So.3d 1051, 1076 (Fla.
2016); Mullens v. State, 197 So.3d 16, 39 (Fla. 2016),
petition for cert. filed, No. 16–6773 (Nov. 4, 2016). As
such, we reject Knight's Hurst claim without further
discussion.

FACTS
After a nonjury trial, Knight was convicted of first-degree
murder in the 1993 shooting death of Richard Kunkel.
Knight v. State, 770 So.2d 663, 664 (Fla. 2000). He was
also convicted of armed robbery, burglary of a dwelling,
and grand theft of an automobile in connection with
the crime. Id. “Knight was sentenced to death for the
first-degree murder conviction, life imprisonment for the
armed robbery conviction, fifteen years for the burglary
of a dwelling conviction, and five years for the grand
theft conviction.” Id. During the guilt phase, Knight
represented himself, 3 with attorney Jose Sosa acting as
standby counsel. Id. For the penalty phase, Knight was
represented by Sosa. Id. On direct appeal, we described
the facts as follows:

The evidence presented during the guilt phase indicated
that Knight and two accomplices, 4 Timothy Peirson
(Peirson) and Dain Brennault (Brennault), [n.2] agreed
that they would go to a gay bar, lure a man away from
the bar, and beat and rob him. The three found Richard
Kunkel (Kunkel) and invited him to go to a party with
them. Kunkel was driving his own car and followed
Knight and the others to Miami Subs. After stopping to
eat, the three convinced Kunkel to leave his car parked
there and ride to the party with them. Knight then drove
to a secluded area where they stopped twice and got out
of the car to urinate.
[N.2] Peirson received three years in prison and
Brennault received five years' probation. The
evidence revealed neither of them knew Knight
planned to kill Richard Kunkel.
Before they got back into the car after their second
stop, Knight pointed a gun at Kunkel and told him
to turn around and take off his jeans. As Kunkel was
complying, Knight fired one shot striking Kunkel in the
back. Kunkel fell to the ground and began crying for
help. Knight then ordered Brennault and *6 Peirson
to search Kunkel's pockets. Peirson complied, but
Brennault refused. Knight and Peirson then dragged
Kunkel's body out of the road. They left Kunkel to
die beside a canal where his body was later discovered.
Knight threatened to kill Peirson and Brennault if they
told anyone about the murder.
Later that night, the three men went back to Miami
Subs where they had left Kunkel's car. Knight then stole
Kunkel's car and took it for a joy ride to see how fast it
would go. Some time later that evening, the three men
broke into Kunkel's house and stole various items. [n.3]
[N.3] Knight took Kunkel's keys and wallet from him
after he shot him. He got Kunkel's address from his
driver's license.
When Peirson and Brennault were first questioned
about the incident by the police, they denied any
knowledge of the murder; however, both men later
confessed. Knight bragged about the murder to
Christopher Holt. Peirson, Brennault, and Holt all
testified against Knight during the guilt phase of the
trial.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

During the penalty phase, the State presented evidence
that Knight had previously been convicted of another
murder occurring under very similar circumstances. The
other aggravating factors presented and relied upon by
the trial judge were that the murder occurred while
Knight was engaged in the commission of a robbery,
the murder was committed for pecuniary gain, and
the murder was cold, calculated, and premeditated.
The trial court merged the “committed during a
robbery” and “for pecuniary gain” aggravators. Knight
presented some mitigation, the most significant of
which was expert witnesses who testified that Knight
suffered from a paranoid disorder that was exacerbated
by his unstable childhood. The court gave this
mitigating factor considerable weight. Knight also
presented mitigating evidence that he had the support
and love of his mother, brother, and sisters and that
the death penalty would be disparate treatment because
his cofelons received much lighter sentences. The court
gave these factors little weight.
Id. at 664–65. On appeal, Knight argued that the court
erred in (1) allowing Knight to represent himself; (2)
failing to renew its offer of court-appointed counsel at
every critical stage of the proceeding; and (3) considering
Knight's prior murder conviction as an aggravating factor
in sentencing him to death because the other murder
occurred after Kunkel's murder. Id. at 665. We found all
of Knight's arguments to be without merit and affirmed
his convictions and sentences. Id.
3

4

Knight had previously discharged his courtappointed guilt phase counsel, Ann Perry, on October
31, 1997. Knight, 770 So.2d at 666–68.
The record indicates the correct spelling of the
accomplices' last names to be “Pearson” and
“Brennalt.” We will refer to them accordingly.

PROCEDURAL HISTORY
Knight was originally charged—in circuit court case
number 1994–CF–4855 (“the 1994 case”)—with seconddegree murder in relation to Kunkel's death. In that case,
Shirley DeLuna served as the prosecutor, and Jose Sosa
represented Knight. However, on January 3, 1995, the
State entered a nolle prosequi, dismissing the case. On
December 8, 1995, subsequent to the dismissal of the 1994
case, Knight was convicted of the first-degree murder in

another case for the death of Brendan Meehan under
unrelated circumstances (“the Meehan case”). Andrew
Slater prosecuted the Meehan case and also represented
the State in the instant postconviction proceedings. On
May 8, 1997, Knight was re-indicted in circuit court case
number 1997–CF–5175 (the instant case), for Kunkel's
murder—the same crime as in the 1994 case, except this
time he was charged with first-degree murder. The 1994
case and the instant case will be *7 collectively referred
to as “the Kunkel cases.”
On October 31, 1997, Knight discharged Ann Perry,
his court-appointed guilt phase counsel in this case,
and kept Sosa as penalty phase counsel. Id. at 666.
On January 8, 1998, Knight also discharged Sosa, but
Sosa was reappointed as standby counsel for the guilt
phase on or around February 18, 1998. Knight's nonjury
trial in the instant case was held from March 11, 1998,
through March 16, 1998. On April 15, 1998, the first
day of Knight's nonjury penalty phase hearing, Sosa
was reappointed as penalty phase counsel, per Knight's
request. After the trial court sentenced Knight to death,
and we affirmed on direct appeal, Knight petitioned the
United States Supreme Court for certiorari review, which
that Court denied on April 30, 2001. Knight v. Florida,
532 U.S. 1011, 121 S.Ct. 1743, 149 L.Ed.2d 666 (2001).
On or about September 27, 2001, Knight filed an
unverified shell motion for postconviction relief, which
was stricken but later reinstated following a determination
that the verification had been notarized on September 10,
2001. Throughout the postconviction proceedings, Knight
was either pro se or represented by his current counsel,
Capital Collateral Regional Counsel—Southern Region
(CCRC–South), which resulted in numerous pro se
amendments and supplements to Knight's postconviction
motion—all of which were adopted by counsel. These
filings present the following twenty-one claims for relief:
(1) the State violated Brady v. Maryland, 373 U.S. 83,
83 S.Ct. 1194, 10 L.Ed.2d 215 (1963), and Giglio v.
United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d
104 (1972); (2) Knight's guilt phase jury waiver was not
knowing, intelligent, and voluntary; (3) Knight's waiver
of guilt phase counsel was not knowing, intelligent,
and voluntary; (4) Knight's penalty phase jury waiver
was not knowing, intelligent, and voluntary; (5) Knight
is “innocent of first-degree murder”; (6) penalty phase
counsel was ineffective for failing to present available
mitigation evidence; (7) Knight was denied an adequate

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

mental health evaluation under Ake v. Oklahoma, 470
U.S. 68, 105 S.Ct. 1087, 84 L.Ed.2d 53 (1985); (8) Knight
is “innocent of the death penalty”; (9) Knight's right
to confront witnesses under Crawford v. Washington,
541 U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004),
was violated; (10) Florida's capital sentencing procedures
are unconstitutional under Ring v. Arizona, 536 U.S.
584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002); (11)
Knight was unconstitutionally denied access to public
records under Chapter 119, Florida Statutes; (12) Knight's
sentence is unconstitutional because it has been applied
discriminately against those accused of killing Caucasians;
(13) Florida's capital sentencing structure fails to prevent
arbitrary and capricious imposition; (14) Florida's lethal
injection procedures are unconstitutional; (15) Knight
is “insane to be executed”; (16) cumulative error; (17)
Knight's conviction violates double jeopardy and speedy
trial based on entry of a nolle prosequi in Knight's 1994
case; (18) counsel was ineffective for failing to file a
motion to discharge the instant case; (19) newly discovered
evidence that Knight's sentence constitutes cruel and
unusual punishment; (20) the State violated Richardson
v. State, 246 So.2d 771 (Fla. 1971); and (21) counsel was
ineffective for failing to ensure that Knight had access to
a complete record on appeal. The postconviction court
granted an evidentiary hearing on all of Knight's claims,
except claims 14, 19, and 20. The evidentiary hearing was
held on May 1–3, June 21, and August 1–2, 2012. On
February 6, 2013, the postconviction court denied all of
Knight's claims.
During the postconviction proceedings, the parties also
engaged in records litigation, *8 during which it was
discovered that the records from the Meehan and
Kunkel cases were comingled. Certain documents had
been destroyed pursuant to the appropriate timetables
for record retention. Efforts were also made to track
down retired or deceased court reporters to obtain
notes from which transcripts of certain proceedings
could be recreated. However, some documents were
never recovered. Knight now appeals the denial of his
postconviction motion.

ANALYSIS
Knight raises the following issues on appeal: (1) penalty
phase counsel was ineffective for failing to adequately
investigate and present mitigation evidence; (2) guilt

and penalty phase counsel were ineffective for failing to
move for a discharge of the instant case based on the
1994 case against Knight, in which the State entered a
nolle prosequi; (3) guilt and penalty phase counsel were
ineffective for failing to raise the issue of the State's
Richardson violation before being discharged; (4) the
reappointment of CCRC–South over Knight's objection
deprived Knight of his right to self-representation; (5)
Knight's waiver of guilt phase counsel and of both guilt
and penalty phase juries was not knowing, intelligent, and
voluntary; and (6) Florida's lethal injection procedures are
unconstitutional.
Knight also petitions for a writ of habeas corpus based
on ineffective assistance of appellate counsel for failing
to raise the following three claims: (1) Knight's waiver
of a guilt phase jury was not knowing, intelligent, and
voluntary; (2) Knight's waiver of a penalty phase jury
was not knowing, intelligent, and voluntary; and (3)
that the record on appeal was incomplete. First, we
summarily reject Knight's claim that Florida's lethal
injection procedures are unconstitutional, as we have
previously rejected such claims in numerous cases. 5 Each
of Knight's remaining claims will be addressed separately
below.
5

Deparvine v. State, 146 So.3d 1071, 1104–05 (Fla.
2014); Henry v. State, 134 So.3d 938, 946–49 (Fla.),
cert. denied, ––– U.S. ––––, 134 S.Ct. 1536, 188
L.Ed.2d 466 (2014); Howell v. State, 133 So.3d 511
(Fla.), cert. denied, ––– U.S. ––––, 134 S.Ct. 1376, 188
L.Ed.2d 372 (2014); Muhammad v. State, 132 So.3d
176, 189–97 (Fla. 2013), cert. denied, ––– U.S. ––––,
134 S.Ct. 894, 187 L.Ed.2d 700 (2014); Kimbrough
v. State, 125 So.3d 752 (Fla.), cert. denied, ––– U.S.
––––, 134 S.Ct. 632, 187 L.Ed.2d 412 (2013); Valle v.
State, 70 So.3d 530, 541 (Fla.), cert. denied, 564 U.S.
1067, 132 S.Ct. 1, 180 L.Ed.2d 940 (2011); Smith v.
State, 998 So.2d 516, 529 (Fla. 2008), cert. denied, 556
U.S. 1191, 129 S.Ct. 2006, 173 L.Ed.2d 1101 (2009);
Lightbourne v. McCollum, 969 So.2d 326, 353 (Fla.
2007), cert. denied, 553 U.S. 1059, 128 S.Ct. 2485, 171
L.Ed.2d 777 (2008).

I. Ineffective Assistance of Trial Counsel
[1]
[2]
[3]
[4]
[5] Knight raises three claims of
ineffective assistance of trial counsel. To prevail, he
must demonstrate both prongs of the Strickland 6 test—

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

deficient performance and prejudice—as to each claim.
Orme v. State, No. SC13–819, ––– So.3d ––––, ––––,
2015 WL 8469221, at *4 (Fla. Dec. 10, 2015). Counsel
has performed deficiently when his or her acts or
omissions fall outside the range of reasonably competent
attorney performance when viewed under prevailing
professional standards. Id. As to prejudice, counsel's
deficiency must have so affected the fairness and reliability
of the proceedings that our confidence in the outcome
of Knight's case is undermined. Id. In reviewing the
denial of Knight's motion, we defer to the postconviction
court's factual findings where supported by competent,
substantial evidence, *9 but review the court's legal
conclusions de novo. See Clark v. State, 35 So.3d 880,
886 (Fla. 2010) (“[A]s long as the trial court's findings
are supported by competent substantial evidence, this
Court will not ‘substitute its judgment for that of the
trial court on questions of fact, likewise of the credibility
of the witnesses as well as the weight to be given to
the evidence by the trial court.’ ” (quoting McLin v.
State, 827 So.2d 948, 954 n.4 (Fla. 2002))). Moreover,
we are highly deferential to the postconviction court
on issues of credibility. Archer v. State, 934 So.2d
1187, 1196 (Fla. 2006); Bell v. State, 965 So.2d 48,
63 (Fla. 2007) (“Questions of credibility are left to
the determination of the circuit court, and provided
there is competent, substantial evidence to support those
credibility assessments, we will defer to that court's
decision.”).
6

Strickland v. Washington, 466 U.S. 668, 687, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984).

A. Failure as to Mitigation
[6] Knight claims that penalty phase counsel was
ineffective for failing to adequately investigate and present
mitigation evidence. He also argues that had more
mitigation evidence been presented, such as that which he
offered at the evidentiary hearing, it would have provided
third-party confirmation of his penalty phase expert's
testimony.
Knight presented the following witnesses at the
evidentiary hearing in support of this particular claim:
Dr. Abby Strauss, a psychiatrist who testified at
Knight's penalty phase and also reviewed new mitigation
information from postconviction counsel in connection
with the instant proceedings; Dr. Philip Harvey, a

neuropsychologist hired by Knight as a postconviction
expert; Dr. Jonathan Lipman, a neuropharmacologist
hired by Knight for postconviction proceedings; Timothy
Pearson, Knight's codefendant in the instant case;
Zebedee Fennell, who was a staff member at the Eckerd
Youth Academy, where Knight spent some time during
his youth; and Theresa Fowler (formerly, Theresa Scott),
Knight's sister who also testified at the penalty phase.
The testimony from Knight's lay witnesses essentially
described his substance abuse history and childhood
experiences.
The postconviction court first found that Dr. Strauss
was the only doctor to provide a clinical diagnosis at
the evidentiary hearing, that Drs. Harvey and Lipman
made no diagnosis of Knight, and that the additional
information Dr. Strauss received merely solidified but
did not change his penalty phase opinion. These findings
are supported by competent, substantial evidence. First,
there is record evidence that neither Dr. Harvey nor Dr.
Lipman made a diagnosis of Knight. Further, because
Dr. Lipman was not licensed to perform psychological
tests in Florida and testified that all of his testing was
completed purely for research purposes, we defer to the
court's finding that Dr. Lipman's testimony was not
credible. See Bell, 965 So.2d at 63; Archer, 934 So.2d
at 1196. Lastly, Dr. Strauss himself testified that his
opinion did not change based on the information provided
in postconviction. Although he acknowledged that the
new mitigation information he received confirmed and
increased the strength or credibility of his penalty phase
testimony, such confirmation was not necessary, nor has
Knight shown how such confirmation would have made
a difference—especially given the trial court's findings as
to the statutory mental health mitigators. Postconviction
counsel's ability to find additional experts who, it argues,
provide more favorable testimony does not make penalty
phase counsel's performance deficient. See Dufour v.
State, 905 So.2d 42, 58 (Fla. 2005) (“Simply presenting
the testimony of experts during the evidentiary hearing
that are inconsistent with the mental health opinion of an
*10 expert retained by trial counsel does not rise to the
level of prejudice necessary to warrant relief.”). We find
no deficient performance as to these mitigation witnesses.
As to Pearson, the postconviction court found that he did
not testify at Knight's penalty phase “based on the advice
of counsel as he was the co-defendant and his case was
pending at the time.” Accordingly, the court found no

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

deficient performance because Knight's counsel could not
be “faulted for failing to call a witness who would not
testify.” After reviewing the record, we find that Pearson's
testimony wavered significantly as to his ability to testify
at Knight's penalty phase. However, he did state at times
that he refused to testify, was unavailable to testify, and
was advised by his attorney not to testify as he was facing
his own charges in connection with Kunkel's murder. As
such, the postconviction court's finding as to Pearson's
unavailability is supported by competent, substantial
evidence. We also agree with the court's finding of no
deficiency for not calling this unavailable or unwilling
witness.
The postconviction court gave “little to no weight” to
Fennell's testimony—which the court found was solely
related to the conditions at Eckerd Youth Academy at
a time when Knight may or may not have been there—
because although Fennell recalled a “Ronald Knight” at
the facility, Fennell remembered Knight being African–
American, not Caucasian, and Fennell was unable to
recognize Knight as the “Ronald Knight” he recalled.
This finding is supported by sufficient evidence. There
was some confusion as to Fennell's position at the Eckerd
Youth Academy during the time periods when Knight
would have been there. Also, Fennell's memory of a
“Ronald Knight” and non-identification of Knight at trial
does not add much weight to Fennell's testimony. Due
to its limited value, Fennell's testimony does not result in
deficient performance by Knight's counsel.
Lastly, the postconviction court cited inconsistencies
between Fowler's penalty phase and postconviction
testimony and found that although Fowler explained
the contradictions by stating that she had been able to
“reflect on the past” and was now seeing things more
clearly than when she originally testified, counsel cannot
be deemed ineffective for failing to present mitigation that
only became available after a family member had time
to reflect on her original testimony. The postconviction
court's assessment as to Fowler's credibility is supported
by competent, substantial evidence, and we agree with
its legal conclusion. Counsel cannot be deemed deficient
because a witness was able to remember more on
postconviction than during her original testimony at trial.
[7] In determining this issue, we do not inquire
whether mitigation could have been better presented,
but whether the defendant has demonstrated both

deficient performance and prejudice. Brown v. State,
846 So.2d 1114, 1121 (Fla. 2003). As Knight has not
demonstrated deficient performance as to any aspect of
this ineffectiveness claim, he is not entitled to relief. A
discussion of prejudice is unnecessary. Orme, ––– So.3d
at ––––, 2015 WL 8469221, at *4 (“Because both prongs
must be demonstrated, once a defendant has failed to meet
one prong, a discussion of the other is unnecessary.”).

B. Failure to Move for Discharge
[8] Knight argues that his penalty phase counsel, Jose
Sosa, was ineffective for failing to move to discharge
the instant case or for failing to notify guilt phase
counsel Ann Perry of the need to do so, based on Sosa's
knowledge of the 1994 *11 case. 7 Knight argues that
Perry was ineffective for failing to investigate the 1994 case
—once she became aware of it—to determine if a motion
for discharge was appropriate. However, Knight is not
entitled to relief.
7

Sosa represented Knight in the original 1994 case.
Sosa died years before the evidentiary hearing in 2012
and therefore did not testify at the hearing.

Knight argues two bases on which a motion for discharge
could have been properly filed: (1) a double jeopardy
violation and (2) a violation of speedy trial. As to double
jeopardy, Knight argues that the jury in the 1994 case
was sworn in the assembly room and that according
to Florida Rule of Criminal Procedure 3.191(c), “[t]he
trial is considered to have commenced when the trial
jury panel for that specific trial is sworn for voir dire
examination.” Thus, Knight argues that double jeopardy
attached because the 1994 trial began when the jury was
sworn in the assembly room. However, Knight's argument
conflates the concept of when trial commences for speedy
trial versus for double jeopardy purposes.
[9]
[10] Florida Rule of Criminal Procedure 3.191(c)
describes when trial commences for speedy trial purposes
and thus, cannot serve as the basis for a double jeopardy
violation. Double jeopardy attaches “when the jury is
impaneled and sworn.” Turner v. State, 37 So.3d 212,
220 (Fla. 2010); see also State v. Gaines, 770 So.2d 1221,
1225 (Fla. 2000). This principle does not refer to a venire
panel being sworn in to prepare for voir dire, but to the
jury of record, which has been selected to hear the case,

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

being sworn in to prepare to hear testimony. See Serfass
v. United States, 420 U.S. 377, 388, 95 S.Ct. 1055, 43
L.Ed.2d 265 (1975) (stating this principle and explaining
that the Supreme Court “has consistently adhered to the
view that jeopardy does not attach, and the constitutional
prohibition can have no application, until a defendant is
‘put to trial before the trier of facts, whether the trier be a
jury or a judge.’ ” (quoting United States v. Jorn, 400 U.S.
470, 479, 91 S.Ct. 547, 27 L.Ed.2d 543 (1971)).
Here, the postconviction court considered a transcript of
the January 3, 1995, hearing at which the nolle prosequi
was entered; testimony from the court reporter who
prepared it; testimony from former prosecutor Shirley
DeLuna, who had entered the nolle prosequi; and Knight's
testimony and found that the jury had not been sworn in
Knight's 1994 case. The court found DeLuna's and the
court reporter's testimony credible and that there was no
unrecorded or un-transcribed portion of the transcript to
indicate that a jury was sworn, a witness was called, or a
motion for discharge was made. Because a jury was not
sworn, the court found that jeopardy did not attach and
the State was permitted to file charges in the instant case.
After reviewing the record, we find that the postconviction
court's factual findings are supported by competent,
substantial evidence. Clark, 35 So.3d at 886. Thus, there
was no basis for Knight's counsel to file a motion to
dismiss, 8 and counsel cannot be deemed ineffective for
failing to file a baseless motion. See, e.g., Lebron v. State,
135 So.3d 1040, 1054 (Fla. 2014); *12 Johnston v. State,
63 So.3d 730, 740 (Fla. 2011). We deny Knight's claim of
ineffective assistance of counsel for failing to file a motion
to dismiss on double jeopardy grounds.
8

Knight argues that counsel was ineffective for not
filing a motion for discharge based on the alleged
double jeopardy violation. However, motions for
discharge are discussed in Florida Rule of Criminal
Procedure 3.191, which concerns only speedy trial
violations and does not mention double jeopardy. It
appears the proper motion would be a motion to
dismiss under rule 3.190(c)(2).

[11] There also can be no deficient performance as to
speedy trial because the speedy trial rule was not violated
in Knight's 1994 case. Florida Rule of Criminal Procedure
3.191(j)(2) states that if trial “does not commence within
the periods of time established by this rule,” a court shall
grant any pending motion for discharge unless “the failure

to hold trial is attributable to the accused, a codefendant in
the same trial, or their counsel.” In this case, the failure to
commence trial can be attributed to Knight in two ways:
(1) defense counsel filing for or stipulating to at least one
continuance in the 1994 case prior to the speedy trial time
expiring and (2) witness intimidation by Knight causing
the entry of the nolle prosequi.
[12] First, the postconviction court found that on August
26, 1994, the parties stipulated to a continuance and that
on October 28, 1994, the parties requested a continuance
that was attributed to the Defendant. 9 These findings are
supported by competent, substantial record evidence. The
docket entry for August 26, 1994, reads in pertinent part,
“Upon stipulation of counsel, and with leave of the court,
case continued and reset.” The transcript also confirms
this finding as to that hearing. As to the October 28,
1994, continuance, the postconviction court relied on a
transcript from that hearing in which the trial court stated
the defense had requested a continuance to which the State
had no objection and defense counsel agreed that the sixtyday continuance would be attributable to defense counsel
and his client. Although—as Knight points out—the
docket entry for that hearing reads in part, “State moves
for a continuance. Motion granted without objection by
the defense,” the postconviction court obviously resolved
this inconsistency in favor of relying on the transcript. 10
The transcript is further supported by testimony from
Shirley DeLuna, prosecutor in the 1994 case, and Andrew
Slater, prosecutor in the Meehan case who initiated the
process of re-filing charges against Knight for the Kunkel
murder. As such, the postconviction court's finding of
defense continuances being on August 26, 1994, and
October 28, 1994, are supported by competent, substantial
evidence. Clark, 35 So.3d at 886.
9

Knight argues that the postconviction court
previously found, in a hearing on June 3, 2011, that
speedy trial had not expired. However, this argument
fails for several reasons. First, a finding that speedy
trial has not expired is not a finding that it has
been waived. Second, in its December 13, 2011, order
the court made clear that it was not addressing
at that hearing the speedy trial issue in relation
to Knight's motion for discharge claims and would
instead address the issue as part of the evidentiary
hearing on Knight's postconviction motion. Even if
the court's statement during the hearing could be
considered a ruling on the merits, at the point when

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

11

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612
the court made the finding, the court had not yet been
presented with the October 28, 1994, transcript—due
to the lost and commingled files—and therefore had
no knowledge of the continuance. Lastly, in his July
14, 2011, Motion for Clarification, Knight himself
states that no motion for discharge with respect to the
double jeopardy/speedy trial issue was argued at the
June 3, 2011, hearing.

10

In addition, this inconsistency is of no effect here since
the parties also agreed to a continuance on August 26,
1994, which we find supports the finding of waiver on
its own.

[13] “[W]hen a defendant requests a continuance prior to
the expiration of the applicable speedy trial time period for
the crime with which he is charged, the defendant waives
his speedy trial right as to all charges which emanate
from the same criminal episode.” *13 Stewart v. State,
491 So.2d 271, 272 (Fla. 1986); see also State v. Kelley,
322 So.2d 581, 583 (Fla. 1st DCA 1975) (“A waiver of
a defendant's right to a speedy trial results where his
attorney and the State's attorney agree upon or stipulate
to a continuance of the trial, or when his attorney consents
to or acquiesces in a delay sought by the State.”). Such
is the case even where the defendant's attorney seeks the
continuance over the defendant's objection or without his
consent. McKenzie v. State, 29 So.3d 272, 282 (Fla. 2010).
The speedy trial rule provided 175 days to bring Knight to
trial on a felony charge. Fla. R. Crim. P. 3.191(a). Because
the arrest record in the 1994 case was filed on May 12,
both the August 26 and October 28 continuances occurred
before speedy trial had expired. Because either a requested
or stipulated continuance waives a defendant's speedy
trial rights, any motion for discharge—whether filed by
Knight's counsel or by Knight himself, since he was pro
se for some of the guilt phase of his trial—would have
been denied, and counsel cannot be deemed ineffective for
failing to file a baseless motion for discharge. See, e.g.,
Lebron, 135 So.3d at 1054; Johnston, 63 So.3d at 740.
[14] As to the second reason for the failure to commence
trial being attributable to Knight, the postconviction
court found that the entry of the nolle prosequi in 1994
was caused by the unavailability of witnesses in the case
due to witness intimidation by Knight. The court's finding
is supported by competent, substantial record evidence,
where DeLuna, Slater, and Knight's accomplice, Brennalt,
all testified to the effects of Knight's witness intimidation.
Because of Knight's improper involvement, there was no

basis to discharge the case, 11 and counsel cannot be
deemed ineffective for failing to file a baseless motion for
discharge. See, e.g., Lebron, 135 So.3d at 1054; Johnston,
63 So.3d at 740. Accordingly, we find that Knight is not
entitled to relief on his claim of ineffective assistance for
failing to file a motion to discharge.
11

Fla. R. Crim. P. 3.191(j)(2) (stating that court shall
grant motion for discharge unless “the failure to hold
trial is attributable to the accused”).

C. Failure to Address the State's Richardson Violation
[15] As his final ineffectiveness claim, Knight argues
that the State violated the discovery requirements of
Richardson 12 and Florida Rule of Criminal Procedure
3.220(b)(1)(B) and (J) by failing to provide him with
the records and transcripts from his 1994 case, certain
statements and depositions of his accomplice, Brennalt,
and the report of the Medical Examiner's investigator,
Wayne J. Arbaczawski. Knight argues that trial counsel
were ineffective for failing to raise this issue at the
time of their respective discharges. Knight also asserts
that he raised the issue several times during his pro se
representation and, as such, the trial court erred in not
conducting a Richardson hearing.
12

Richardson v. State, 246 So.2d 771 (Fla. 1971).

“Whereas the main question on direct appeal is whether
the trial court erred, the main question in a Strickland
claim is whether trial counsel was ineffective.” Bruno v.
State, 807 So.2d 55, 63 (Fla. 2001) (footnote omitted).
Here, Knight asserts trial court error and ineffective
assistance of trial counsel. As the postconviction court
found, Knight's claim of trial court error should have
been raised on direct appeal and is therefore procedurally
barred. State v. Coney, 845 So.2d 120, 137 (Fla. 2003)
(“To the extent Coney's claims on this point are claims
of trial court error, such *14 claims generally are not
cognizable in a rule 3.850 motion.”); Bruno, 807 So.2d at
63 (“A claim of trial court error generally can be raised on
direct appeal but not in a rule 3.850 motion, and a claim
of ineffectiveness generally can be raised in a rule 3.850
motion but not on direct appeal.”) (footnote omitted).
As to Knight's ineffectiveness claim, even if we were
to assume deficient performance, Knight has not shown
that he was prejudiced by his trial counsel failing to

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

12

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

raise this issue. Knight argues that if he had received
the Brennalt documents and the investigator's report
from the State prior to trial, he could have used
them to impeach Brennalt's testimony and the State's
theory of the crime: that Knight was the shooter and
instigator of the killing. As to the Brennalt documents,
Knight points to various inconsistencies in Brennalt's
trial testimony, statements, and depositions and describes
the materiality of the documents as follows: “[A]t the
evidentiary hearing below Dain Brennalt testified that
he had consistently told the same story, ‘the absolute
truth’ in all his statements. However the reality is that
his testimony at trial contradicted his numerous pre-trial
statements, interviews, and depositions.” This comment
fails to recognize, however, that at trial, Knight was able
to use several of Brennalt's statements and depositions
to impeach Brennalt as to his truthfulness. Knight has
not demonstrated that any of the documents in question
would have had any additional impeachment value.

ineffective assistance of counsel claim absent factual
allegations of both a deficiency in performance and
prejudice); Carroll v. State, 815 So.2d 601, 609 n.8
(Fla. 2002) (finding defendant's public records claim
insufficiently pled where claim was raised as a conclusory
assertion within another, separate issue). We find that
Knight is not entitled to relief as to these claims.

Knight represents that in the investigator's report,
Arbaczawski opines that the shooting did not occur at
the location where the body was found. For this premise,
he cites the following statement from the report: “My
initial impression of this scene was that the deceased was
dumped from a vehicle, bleeding on the roadway, and
rolled down the canal embankment.” Knight argues that
had he been provided the report, he would have used this
information as further support for his theory of the case.
However, Knight's theory of the case was that someone
else committed the crime. Using the report to substantiate
a theory in which the murder occurs at a different
location still does not eliminate Knight as the shooter—
regardless of the location of the actual murder. Therefore,
Knight was not prejudiced by counsel's failure to raise the
Richardson issue, especially where he represented himself
after his counsel were discharged.

[A] defendant's federal constitutional right to selfrepresentation ends when he or she has been convicted.
Likewise, after the conviction is affirmed on direct
appeal, a defendant's right to self-determination must
be balanced with this Court's obligations to ensure
reliability, fairness, and uniformity in the imposition of
the death penalty. See generally Muhammad v. State,
782 So.2d 343, 364 (Fla. 2001).

As an aside, Knight also argues that he was denied
due process when he was repeatedly denied access to
public records under Chapter 119 and Florida Rule of
Criminal Procedure 3.852. However, Knight makes no
arguments for deficiency or prejudice as to this issue.
Such speculative, conclusory allegations are insufficient
to warrant postconviction relief. Johnston v. State, 70
So.3d 472, 477 (Fla. 2011) (“Mere speculation that
counsel's error affected the outcome of the proceeding
is insufficient.”); see, e.g., Rhodes v. State, 986 So.2d
501, 513–14 (Fla. 2008) (upholding summary denial of

II. Reappointment of CCRC–South
[16] [17] [18] [19] [20] [21] [22] Knight argues that
the reappointment over his objection of CCRC–South
during postconviction proceedings deprived him of his
right to self-representation. “While a defendant has a
constitutional right to self-representation and self- *15
determination at trial, these rights do not continue to the
same degree after the conviction.” Lambrix v. State, 124
So.3d 890, 899 (Fla. 2013). As this Court has explained:

We emphasize that a defendant continues to have
a right to self-determination during postconviction
proceedings, and this Court will not force counsel
on a defendant who does not seek to challenge his
or her convictions after the convictions have been
affirmed, so long as the defendant is competent to
make that decision and the waiver is knowing and
voluntary. James v. State, 974 So.2d 365, 367 (Fla.
2008); Durocher v. Singletary, 623 So.2d 482, 484–
85 (Fla. 1993). Any right of self-determination and
self-representation during postconviction proceedings,
however, does not outweigh this Court's solemn duty
to ensure that the death penalty is imposed in a fair,
consistent, and reliable manner, and to guarantee this
Court's administrative responsibility to minimize delays
in the postconviction process. See Gordon v. State, 75
So.3d 200, 203 (Fla. 2011) (holding that based on these
policy considerations, death-sentenced appellants may
not appear pro se when appealing the denial of relief in
postconviction proceedings). In addition, a defendant
does not have the right to disrupt the judicial system,

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

13

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

frustrate the administration of justice, or prevent his or
her case from being litigated. See, e.g., McCray v. State,
71 So.3d 848, 868 (Fla. 2011) (“[T]he trial court has the
power to terminate a defendant's self-representation if
he continues to abuse the court system.”), cert. denied,
565 U.S. 1263, 132 S.Ct. 1743, 182 L.Ed.2d 536 (2012).
Id. at 899–900. This Court reviews a lower court's
handling of a request for self-representation for an abuse
of discretion. Aguirre–Jarquin v. State, 9 So.3d 593, 602
(Fla. 2009).
Knight's situation is like that of the defendant in Lambrix.
There, the defendant argued that the postconviction court
erred in denying his request to represent himself. 124
So.3d at 898. The defendant had filed a pro se motion
in 2009 to discharge his counsel. Id. At a hearing on the
motion, the defendant “asserted that he was seeking the
appointment of alternative counsel and had ‘no intention
of waiving the statutory right to postconviction counsel
before the proceedings in the lower court.’ ” Id. The
postconviction court denied the motion, “finding that
CCRC was rendering competent representation and that
there was no basis to discharge counsel.” Id. Later that
year, the defendant filed another pro se motion, “seeking
the right to waive postconviction counsel and represent
himself.” Id. at 899. When asked during the hearing
“whether he understood that if he waived postconviction
counsel, it was not guaranteed that postconviction counsel
would be reappointed later, Lambrix asserted that he
understood,” but added that he would likely be reasserting
his right to postconviction representation upon the signing
of his death warrant in the future. Id.
In reviewing the defendant's claim on appeal from the
denial of his postconviction motion, we concluded that
the postconviction court did not abuse its discretion in
denying Lambrix's right to *16 represent himself. Id. We
explained our rationale as follows:

Permitting Lambrix to waive
counsel now, especially when he
specifically stated that he would
like the opportunity for counsel if
a death warrant is signed in the
future, would only create delays at
the point when a death warrant is
signed, as counsel would then need

to be appointed and to have an
opportunity to become familiar with
the case. Further, the only purpose
in allowing Lambrix to proceed pro
se at this time would be to give
him further ability to continue to
file pleadings that to date have
consistently lacked merit. At least
with counsel to represent him,
there will be the requirement that
counsel has a good faith belief that
the allegations are not completely
devoid of merit. Thus, any right
to self-representation Lambrix may
have does not outweigh the risk
of substantial interference with the
administration of the death penalty
presented in this case.

Id. at 900 (citation omitted). As such, we affirmed the
postconviction court's denial of the defendant's motion to
proceed pro se. Id.
Knight's case presents an even stronger argument than
that of Lambrix for denying relief as to this issue. First,
the postconviction court here allowed Knight to proceed
pro se several times throughout the postconviction
proceedings; whereas, the defendant in Lambrix was
not permitted to represent himself at any point during
postconviction. Id. at 898–99. Also, the court gave
Knight a choice: to continue with CCRC–South or to
represent himself; conversly, it does not appear that the
postconviction court in Lambrix provided an alternative
and instead simply denied the defendant's motion to
discharge counsel. Id. at 898, 899. Even providing Knight
with such a choice did not violate his right to selfrepresentation. Weaver v. State, 894 So.2d 178, 188 (Fla.
2004) (finding that where a “trial court decides that courtappointed counsel is providing adequate representation,
the court does not violate an indigent defendant's Sixth
Amendment rights if it requires him to keep the original
court-appointed lawyer or represent himself.”).
Lastly, “[b]efore the trial court can make a decision
whether to permit the defendant to proceed pro se,
the defendant's request for self-representation must be
unequivocal.” Tennis v. State, 997 So.2d 375, 378 (Fla.
2008); Aguirre–Jarquin, 9 So.3d at 602 (“It is well settled

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

14

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

that the accused has the right to self-representation.
However, it is also settled that the defendant must
unequivocally elect to represent himself.”) (citation
omitted). At the time of CCRC–South's reappointment, it
appears Knight was instead asserting a desire to discharge
CCRC–South and have new counsel appointed—not to
represent himself. In fact, Knight specifically stated that
he did not want to represent himself.

procedurally barred, as it should have been raised on
direct appeal. Id. at 489 (finding claims procedurally
barred because “the issue could have or should have been
raised on direct appeal.”). Thus, Knight is not entitled to
relief on this claim.

Thus, it appears Knight's claim is that the postconviction
court erred in reappointing CCRC–South instead of
appointing substitute counsel. As noted by the State,
however, Knight was not entitled to counsel of his choice.
See Capehart v. State, 583 So.2d 1009, 1014 (Fla. 1991)
(“Without establishing adequate grounds, a criminal
defendant does not have a constitutional right to obtain
different court-appointed counsel.”). Upon inquiring into
the quality of representation Knight was receiving and
finding no grounds to discharge CCRC–South, the
postconviction court properly presented Knight with
the options available to him: to keep CCRC–South or
proceed pro se. See, e.g., Koon v. State, 513 So.2d
1253, 1255 (Fla. 1987) (finding “no basis for Koon's
argument that he should have been furnished new *17
counsel” because an indigent defendant “does not have
a right to have a particular lawyer represent him” and
although a defendant has a constitutional right to waive
counsel, “Koon expressly declared that he had no desire
to represent himself”). We find the postconviction court's
reappointment of CCRC–South was not an abuse of
discretion.

[25] [26] As with postconviction claims, we also use the
Strickland standard to determine ineffective assistance
of appellate counsel. Walls v. State, 926 So.2d 1156,
1175 (Fla. 2006). Appellate counsel's deficiency must be
related to an error affecting the outcome of the case, not
harmless error, and must have so affected the appellate
process that confidence in the correctness of the result is
undermined. Orme, ––– So.3d at ––––, 2015 WL 8469221,
at *4. Furthermore, appellate counsel cannot be deemed
ineffective for failing to raise a meritless issue. Wyatt v.
State, 71 So.3d 86, 112–13 (Fla. 2011).

IV. Habeas Claims

A. Waivers of Guilt and Penalty Phase Juries

III. Waiver of Counsel and Guilt and Penalty Phase Juries

[27]
[28] Knight argues that appellate counsel was
ineffective for failing to raise the claim that Knight's
waivers of guilt and penalty phase juries were not
knowing, intelligent, and voluntary. A waiver of the
right to a jury trial must be knowing, intelligent, and
voluntary. See State v. Upton, 658 So.2d 86, 87 (Fla.
1995); Lamadline v. State, 303 So.2d 17, 20 (Fla. 1974)
(holding that “record must affirmatively show that the
defendant voluntarily and intelligently waived the right to
have a sentencing jury”).

[23] [24] Knight argues that his waivers of guilt phase
counsel and both guilt and penalty phase juries were
not knowing, intelligent, and voluntary. However, as
the postconviction court noted in its order, this Court
addressed Knight's waiver of guilt phase counsel on direct
appeal, finding that the trial court did not err in allowing
Knight to waive counsel and represent himself. Knight,
770 So.2d at 668. Accordingly, Knight's claim as to his
waiver of guilt phase counsel is procedurally barred, and
we affirm the postconviction court's denial of this claim.
See Muhammad v. State, 603 So.2d 488, 489 (Fla. 1992)
(finding claims procedurally barred because already raised
and rejected on direct appeal). Knight's claim regarding
his waivers of guilt and penalty phase juries is also

In this case, Knight first mentioned the possibility of
wanting a nonjury trial on January 8, 1998, but the issue
was not discussed at that time. In a letter to the trial
court dated February 10, 1998, Knight again expressed
his desire to have a nonjury trial and requested a hearing
on the issue. At a February 18, 1998, pretrial hearing,
the trial judge mentioned the letter, explained that waiver
is a serious issue, and gave Knight some time to discuss
the jury waiver option with standby counsel, Jose Sosa.
Sosa explained that he had discussed the issue with Knight
before the hearing and Knight had already decided on
the waiver. After discussing the issue with Sosa again,
Knight told the court he had had enough time to talk
with Sosa and confirmed his desire for a nonjury trial.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

15

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

Two days later, the court reconfirmed with Knight his
desire for a nonjury trial and asked Sosa to memorialize
Knight's wishes *18 in writing. Knight executed a written
waiver of his right to a trial by jury. After the guilt phase,
the judge read the verdict and again inquired of Knight
regarding his desire to waive his right to a jury, clarifying
that Knight wanted to waive his rights as to both the guilt
and penalty phases of trial.
This Court has found jury trial waivers to be knowing,
intelligent, and voluntary in cases similar to the instant
case. See, e.g., Guzman v. State, 721 So.2d 1155, 1158
& n.1 (Fla. 1998) (finding defendant's waiver of guilt
and penalty phase juries to be knowing, voluntary,
and intelligent where waiver was defendant's idea,
contrary to defense counsel's advice, both trial court and
defense counsel questioned defendant in open court, and
defendant signed a written waiver); Mines v. State, 390
So.2d 332, 335–36 (Fla. 1980) (denying relief as to guilt
and penalty phase jury waivers where defendant initiated
request for nonjury trial, trial judge immediately directed
defendant to confer with his counsel privately concerning
waiver, trial court subsequently made “a full inquiry
of the appellant in open court,” a written waiver was
executed by defendant, and court inquired of defendant
again concerning penalty phase waiver prior to sentencing
despite written waiver including penalty phase). Although
the defendants in Mines and Guzman were represented
by counsel throughout their trials, Knight was able to
receive advice at the guilt phase because Sosa was Knight's
standby counsel, and Knight was represented by Sosa at
the penalty phase.
Further, Knight's testimony at the evidentiary hearing
indicates that Knight was using his past criminal trial
experience to make intelligent decisions about whether
to waive his right to a jury trial. In addition, the
postconviction court found most of Knight's testimony
on this issue not credible, and such finding is supported
by competent, substantial evidence. Clark, 35 So.3d at
886; McLin, 827 So.2d at 954 n.4. In light of Mines and
Guzman, Knight's prior experience with a criminal trial,
and his adamancy for waiving his right to a trial by jury,
we find that Knight's waivers of guilt and penalty phase
juries were knowing, voluntary, and intelligent.
Had appellate counsel, on direct appeal, sought this
Court's review of Knight's waivers of guilt and penalty
phase juries, this Court would have found them to be

knowing, intelligent, and voluntary. Because this issue
would have been found meritless, counsel cannot be
deemed ineffective for failing to raise it. Wyatt, 71 So.3d at
112–13; see also Rutherford v. Moore, 774 So.2d 637, 643
(Fla. 2000) (“If a legal issue ‘would in all probability have
been found to be without merit’ had counsel raised the
issue on direct appeal, the failure of appellate counsel to
raise the meritless issue will not render appellate counsel's
performance ineffective.” (quoting Williamson v. Dugger,
651 So.2d 84, 86 (Fla. 1994))). We find that Knight has not
demonstrated ineffective assistance of appellate counsel as
to this issue.

B. Incomplete Record on Appeal
[29] Knight argues that appellate counsel was ineffective
for failing to ensure a complete record on appeal, which
Knight avers should have included the records from his
1994 case and certain statements and depositions of his
accomplice Brennalt—which Knight states he could have
used for impeachment purposes. Knight also states in one
sentence in his petition that transcripts of all hearings
related to the waiver of counsel and the waiver of the
jury at both phases of trial should have been included
as well. We first summarily reject Knight's claim as to
the transcripts as insufficiently pled. He has not set
forth which transcripts were not included, nor how their
inclusion would have assisted *19 him. See Rodriguez v.
State, 919 So.2d 1252, 1287 (Fla. 2005) (“Rodriguez has
not sufficiently pled this claim as he has not explained
what issues he was unable to raise as a result of any missing
or inaccurate record. Thus, Rodriguez is not entitled to
relief on this claim.”). Our conclusion is further supported
by our ability on direct appeal to have conducted a
meaningful review of the waiver of counsel issue and by
our ability to review the jury waiver issue in this habeas
proceeding.
Knight's claim also fails concerning the records from his
1994 case. Knight's only argument as to the inclusion of
the 1994 case records was as follows: “[S]pecific prejudice
exists because it is apparent that neither the parties on
direct appeal nor this Court could rely on the accuracy
of a record where a complete set of transcripts from the
1994 nolle prosse and transcripts of the later waivers
after indictment for [first-degree] murder were simply
not present in the record on appeal.” Such a conclusory
allegation of prejudice does not warrant habeas relief.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

16

Knight v. State, 211 So.3d 1 (2016)
41 Fla. L. Weekly S612

Bradley v. State, 33 So.3d 664, 685 (Fla. 2010); see, e.g.,
Freeman v. State, 761 So.2d 1055, 1073 (Fla. 2000) (“Even
if the Court were to assume that failure to include this
portion of the record fell measurably below the standard
of competent counsel, Freeman has not demonstrated
that the failure prejudiced him. Accordingly, this claim is
without merit.”).
Lastly, Knight argues that he needed Brennalt's
statements and depositions “for impeachment purposes.”
However, his habeas pleadings do not set forth any more
specific arguments of prejudice than that and therefore
do not entitle him to habeas relief. Bradley, 33 So.3d at
685. As explained above, if Knight's purpose for these
documents was impeachment as to truthfulness, such
purpose was not thwarted given that Knight was able to
impeach Brennalt using the statements and depositions
he had. Accordingly, Knight has failed to demonstrate
prejudice as to the Brennalt documents and neither
deficiency nor prejudice as to the 1994 case documents
End of Document

or hearing transcripts in his current case. We therefore
deny Knight's claim of ineffective assistance of appellate
counsel as to this claim.

CONCLUSION
For the above reasons, we affirm the postconviction
court's denial of relief and deny habeas relief.
It is so ordered.

LABARGA, C.J., and PARIENTE, LEWIS, QUINCE,
and PERRY, JJ., concur. CANADY and POLSTON, JJ.,
concur in result.
All Citations
211 So.3d 1, 41 Fla. L. Weekly S612

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

17

